No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, AND CARINA CONERLYPEUTIONERS
VS.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, AND KIANA R TURNER RESPONDENTS)

PROOF OF SERVICE
Terrence Scott
., do swear or declare that on this date,
I,
lulv 29. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Sharif Roldan Tarpin
6048 Riverside BL Unit A-13
Sacramento. CA 95831
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 27.2021

z
(Signature)

received
SEP - 1 2021

No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, AND CARINA CONERLYPETITIONERS
YS.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, AND KIANA R TURNER RESPONDENT(S)

PROOF OF SERVICE
Terrence Scott
, do swear or declare that on this date,
—July 29, 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Kiana R Turner
_____________ _______
6048 Riverside BL Unit A-13______ __________
Sacramento. CA 95831
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 27.2021

5* X
(Signature^

No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, AND CARINA CONERLYPETITIONERS
VS.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, AND KIANA R TURNER RESPONDENT^)

PROOF OF SERVICE

Terrence Scott
., do swear or declare that on this date,
1,
lulv 29. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
John Patrick Winn
c/o Department of Justice
13001 Street
Sacramento. CA 95814
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 27.2021

(Signature)

1

No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, AND CARINA CONERLYPETITIONERS
VS.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, AND KIANA R TURNER RESPONDENT(S)

PROOF OF SERVICE

j do swear or declare that on this date,
Terrence Scott
I,
lulv 29. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to
the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Sharif Roldan Tarpin_________________________
6048 Riverside BL Unit A-13
Sacramento. CA 95831
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 27. 2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, AND CARINA CONERLYPETITIONERS
VS.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, AND KIANA R TURNER RESPONDENT(S)

PROOF OF SERVICE

Terrence Scott
., do swear or declare that on this date,
I
lulv 29. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to
the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them arid with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Kiana R Turner
6048 Riverside BL Unit A-13
Sacramento. CA 95831
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 27. 2021

(Signature)

V

1
No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, AND CARINA CONERLYPETITIONERS
VS.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, AND KIANA R TURNER RESPONDENT(S)

PROOF OF SERVICE

., do swear or declare that on this date,
Terrence Scott
I.
lulv 29. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to
the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
John Patrick Winn
c/o Department of Justice
13001 Street
Sacramento, CA 95814
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

August 27. 2021

(Signaturp^

